1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2331
United States of America
Appellee
v.
Mark Ringland
Appellant
--------------------------Google, LLC, et al.
Amici on Behalf of Appellee(s)
_________________________________________________
Appeal from U.S. District Court for the
District of Nebraska – Omaha
(8:17-cr-00289-LSC-1)
_________________________________________________
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Kelly did not participate in the consideration or decision of this matter.
October 06, 2020

2a
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit
_________________________________________
/s/ Michael E. Gans

3a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_____________________________________
No: 19-2331
_____________________________________
United States of America,
Plaintiff - Appellee
v.
Mark Ringland,
Defendant - Appellant
________________
Appeal from the United States District Court
for the District of Nebraska – Omaha
________________
Submitted: May 12, 2020
Filed: July 16, 2020
________________
Before COLLOTON and BENTON, Circuit Judges,
and WILLIAMS, District Judge. 1
________________

The Honorable C.J. Williams, United States District Judge for
the Northern District of Iowa, sitting by designation.
1

4a
WILLIAMS, District Judge.
Mark Ringland was convicted of receipt of child
pornography, in violation of Title 18, United States
Code, Section 2252(a)(2). At trial, the government introduced evidence of child pornography found on Ringland’s electronic devices. Law enforcement officers
seized and searched Ringland’s devices under authorized warrants based on information furnished by
Google, Inc. (“Google”) and the National Center for
Missing and Exploited Children (“NCMEC”). On appeal, Ringland asserts the district court 2 erred in
denying his motion to suppress this evidence because
he contends Google, acting as a government agent,
conducted unlawful warrantless searches of his email
accounts. Alternatively, Ringland argues that
NCMEC, acting as a government agent, also conducted unlawful warrantless searches of his email accounts by expanding Google’s original searches. Finally, Ringland argues the good faith exception to the
exclusionary rule does not apply to save the unlawful
searches. Because we find the searches lawful, we affirm.
I.
Google is an electronic communication service provider (“ESP”) offering a variety of services, including
the email service gmail. To create a gmail account, users must agree to Google’s terms of service, which includes Google’s right to review content to ensure it
complies with the law. Google monitors gmail accounts using automated systems employing a hashThe Honorable Laurie Smith Camp, United States District Judge
for the District of Nebraska, adopting the findings and recommendation of the Honorable Michael D. Nelson, United States Magistrate Judge for the District of Nebraska.
2

5a
comparison technology to detect unlawful content,
such as child pornography. Federal law requires
Google to report known child pornography violations
to NCMEC through the CyberTipline Report system.
See 18 U.S.C. § 2258A(a).
On March 20, 2017, Google sent a CyberTipline Report to NCMEC containing 784 files of child pornography from Ringland’s email account mringland69@gmail.com (“mringland69”). Google discovered some of these files through its hashing technology. The report noted that it contained “over 700 files,”
with Google affirming it reviewed 231 of the files but
providing no information on the other 553 files.
NCMEC “reviewed the uploaded files and found” apparent child pornography. On March 21, 2017, Google
sent a new report to NCMEC, after uploading 400
more files from Ringland’s gmail account, stating it
had reviewed 258 of the files but giving no information
on the other 142. Between April 6, 2017, and April 19,
2017, Google reported and uploaded to NCMEC 32
more files from Ringland’s gmail account, stating it
had reviewed 13 of the files and giving no information
on the other files. In sum, from March 20, 2017, to
April 19, 2017, Google uploaded to NCMEC 1,216 files
from the mringland69 gmail account. Of these files,
Google viewed 502 and gave no information as to
whether it viewed the rest. On April 17, 2017, and
April 28, 2017, NCMEC forwarded all reports to the
Nebraska State Police (“NSP”).
Google continued to monitor Ringland’s gmail accounts. On June 20, 2017, Google discovered the gmail
account mringland65@gmail.com (“mringland65”),
which appeared to be linked to mringland69. Google
scanned and uploaded two files from this second gmail
account to NCMEC. Google gave no information as to

6a
its review. On June 21, 2017, NCMEC noted it had not
reviewed the files and forwarded them to police officers
in South Dakota.
On June 27, 2017, NSP Investigator C.J. Alberico
(“Investigator Alberico”) sought and received a warrant to search the email mringland69. In her application, Investigator Alberico noted that Google had reviewed only 502 of the 1,216 files found on the mringland69 account and that she had reviewed only the
same 502 files. From searching this account, Investigator Alberico discovered that the email address
mringland69 had sent child pornography images to
the email address mringland65.
On July 13, 2017, Google uploaded two more files
from a third email, markringland65@gmail.com
(“markringland65”), with no information as to its review. On July 18, 2017, NCMEC linked the June 20
and July 13 reports and forwarded both to NSP.
NCMEC noted it had not reviewed these files. On July
19, 2017, Google uploaded five more files from
markringland65, but did not indicate its review. On
July 21, 2017, NCMEC did not review the files but forwarded them to NSP.
Between August 1, 2017, and August 4, 2017,
Google uploaded 1,109 more files from markingland65
across nine reports. Google indicated it reviewed 773 of
the files and gave no information on the other files. In
one of the nine reports, NCMEC noted it had “viewed
the uploaded files and found” apparent child pornography. On August 4, 2017, NCMEC forwarded these reports to NSP.
On August 7, 2017, Investigator Alberico sought
and received a warrant to search defendant’s other

7a
two gmail accounts, mringland65 and markringland65. As to mringland65, Investigator Alberico
noted mringland69 had sent child pornography to that
address. As to markringland65, Investigator Alberico
relied on the nine reports from NCMEC as containing
alleged contraband. Investigator Alberico noted
Google had not reviewed all the files in the reports and
she had not viewed them either.
On August 31, 2017, Investigator Alberico sought
and received a warrant to track defendant’s cell phone,
which was identified in earlier reports. 3 On September
1, 2017, Investigator Alberico sought and received federal search and arrest warrants. That same day, officers arrested Ringland, who made incriminating statements and allowed officers to retrieve an iPad from his
van. On September 5, 2017, Ringland made further incriminating statements to Investigator Alberico during a transfer.
Ringland moved to suppress evidence recovered
from his mringland69, mringland65, and markringland65 gmail accounts. A United States Magistrate
Judge held an evidentiary hearing and issued a Findings and Recommendation (“F&R”). The magistrate
judge found that Google was not acting as a government agent. The judge also found that NCMEC did not
view more files than Google. The judge further found
that Investigator Alberico did not view more files than
Google. Alternatively, the magistrate judge reasoned,
the officers who executed the search relied in good faith
on the signed warrants such that the good faith exception to the exclusionary rule applied under United
From August 4, 2017, to August 31, 2017, Google uploaded 566
more files from markrigland65 to NCMEC, but none of this information went into anywarrant application.
3

8a
States v. Leon, 468 U.S. 897 (1984). Ringland objected
to the magistrate judge’s F&R.
The district court judge overruled Ringland’s objections to the magistrate judge’s F&R. The district
court judge found the magistrate judge’s factual findings to be correct, and further found the magistrate
judge did not omit any material facts. The district
court judge agreed that Google did not act as a government agent and that Investigator Alberico did not
view any more files than Google. The district court
judge concluded it did not matter whether NCMEC
viewed more files because Investigator Alberico only
viewed those already viewed by Google. Finally, the
district court judge agreed alternatively that the warrants were within the Leon good faith exception.

II.
When reviewing the denial of a motion to suppress,
we review the district court’s factual findings for clear
error and its legal conclusions de novo. United States
v. Clay, 646 F.3d 1124, 1127 (8th Cir. 2011).
“A warrantless search is presumptively unreasonable absent some exception to the warrant requirement[.]” United States v. Hernandez Leon, 379 F.3d
1024, 1027 (8th Cir. 2004). “The ordinary sanction for
police violation of Fourth Amendment limitations has
long been suppression of the evidentiary fruits of the
transgression.” United States v. Fiorito, 640 F.3d 338,
345 (8th Cir. 2011). The Supreme Court has also long
held, however, that Fourth Amendment protection extends only to actions undertaken by government officials or those acting at the direction of some official.
See, e.g., Skinner v. Ry. Labor Execs.’ Ass’n, 489 U.S.
602, 613-14 (1989); Coolidge v. New Hampshire, 403
U.S. 443, 487 (1971); Burdeau v. McDowell, 256 U.S.

9a
465, 475 (1921). Thus, “the Fourth Amendment does
not apply to a search or seizure, even an arbitrary one,
effected by a private party on his own initiative” but
it does “protect[] against such intrusions if the private
party acted as an instrument or agent of the Government.” Skinner, 489 U.S. at 614.
“Whether a private party should be deemed an
agent or instrument of the government for Fourth
Amendment purposes necessarily turns on the degree
of the government’s participation in the private party’s
activities, a question that can only be resolved in light
of all the circumstances.” United States v. Wiest, 596
F.3d 906, 910 (8th Cir. 2010) (quoting Skinner, 489
U.S. at 614). In this context, we have focused on three
relevant factors: “[1] whether the government had
knowledge of and acquiesced in the intrusive conduct;
[2] whether the citizen intended to assist law enforcement or instead acted to further his own purposes; and
[3] whether the citizen acted at the government’s request.” Id. “A defendant bears the burden of proving
by a preponderance of the evidence that a private party
acted as a government agent.” United States v. Highbull, 894 F.3d 988, 992 (8th Cir. 2018). Further,
“[w]hen a statute or regulation compels a private party
to conduct a search, the private party acts as an agent
of the government.” United States v. Stevenson, 727
F.3d 826, 829 (8th Cir. 2013) (citation omitted). “Even
when a search is not required by law, however, if a statute or regulation so strongly encourages a private party
to conduct a search that the search is not ‘primarily the
result of private initiative,’ then the Fourth Amendment
applies.” Id.
If a private party conducted an initial search independent of any agency relationship with the govern-

10a
ment, then law enforcement officers may, in turn, perform the same search as the private party without violating the Fourth Amendment as long as the search
does not “exceed[ ] the scope of the private search.”
United States v. Miller, 152 F.3d 813, 815 (8th Cir.
1998). This is because the private search already frustrated the person’s legitimate expectation of privacy;
thus, “an ensuing police intrusion that stays within
the limits of the private search is not a search for
Fourth Amendment purposes.” Id.
III.
Here, the district court did not err when it found
Google’s search of Ringland’s email accounts constituted a private search. Ringland argues Google
acted as a government agent because it was coerced
into reporting child pornography by statutory penalties
imposed for failing to report such content. It is true that
Title 18, United States Code, Section 2258A(a) requires
an ESP to report to NCMEC any apparent violation of
child pornography laws it discovers. Despite the reporting requirement, however, Section 2258A does not require ESPs to seek out and discover violations. 18
U.S.C. 2258A(f).
In United States v. Stevenson, the defendant
sought to suppress child pornography discovered on his
email by America Online (“AOL”) through hashing. 727
F.3d at 828-29. AOL’s hash-detection program automatically forwarded a report to NCMEC which was
then relayed to law enforcement officers. There, we rejected the defendant’s argument that Sections 2258A
and 2258B amounted to state action like the railroad
regulations in Skinner v. Railway Labor Executives’
Association. Id., at 829-30. We held these sections did

11a
not authorize the scanning of emails, clear legal barriers for preemptively scanning emails, prohibit ESPs
from contracting away their rights to scan emails, or
delineate consequences for users should they refuse to
submit to scanning. Id., at 830. We concluded that “[a]
reporting requirement, standing alone, does not transform an [ESP] into a government agent whenever it
chooses to scan files sent on its network for child pornography.” Id.; see also United States v. Cameron, 699
F.3d 621, 637-38 (1st Cir. 2012) (same); United States
v. Richardson, 607 F.3d 357, 366-67 (4th Cir. 2010)
(same).
Here, Google did not act as a government agent because it scanned its users’ emails volitionally and out
of its own private business interests. Google did not
become a government agent merely because it had a
mutual interest in eradicating child pornography from
its platform. See Cameron, 699 F.3d at 637 (“We will
not find that a private party has acted as an agent of
the government ‘simply because the government has a
stake in the outcome of a search.’”). The government
did not know of Google’s initial searches of Ringland’s
gmail accounts, the government did not request the
searches, and Google acted out of its own obvious interests in removing child sex abuse from its platform. See
United States v. Smith, 383 F.3d 700, 705 (8th Cir.
2004). Again, Google was not required to perform any
such affirmative searches. As we held in Stevenson,
the reporting requirement for child pornography alone
does not transform Google into a government agent.
See 727 F.3d at 830. Moreover, the statutory scheme
does not so strongly encourage affirmative searches
such that it is coercive. In fact, the penalties for failing
to report child pornography may even discourage
searches in favor of willful ignorance. Thus, Google was

12a
not a state actor here and its searches do not implicate
the Fourth Amendment.
Ringland asserts this case is distinguishable from
Stevenson because Google continued to scan his email
and uncover his identifying information after its initial
report to NCMEC, thus showing the government was
aware of and acquiesced to Google’s searches and
Google acted to assist NSP. Ringland also asserts
Google’s size and far-reaching access to its users’ personal data threatens the Fourth Amendment like in
Carpenter v. United States, 138 S. Ct. 2206, 2212
(2018), wherein law enforcement officers obtained and
executed court orders on Sprint and MetroPCS to disclose the cell-site location data of several robbery suspects. Ringland argues the same “seismic shifts in digital technology” allowing for long-term and specific location tracking apply here and warrant suppression of
the evidence.
Ringland’s attempts to distinguish Stevenson are
unpersuasive. It is inconsequential that Google continued to scan his email accounts or uncover identifying
information after sending its initial report. These continued searches were, again, unrequested by the government and comport with Google’s private interests.
Further, there is no evidence the government had any
notice Google would conduct these searches prior to receiving the search results. That Google continued to
monitor Ringland’s emails and comply with reporting
requirements does not anymore indicate its intent to
help the government than its first report did. Nor is
there any evidence that the government directed Google
to continue its review of Ringland’s accounts. The unity
of interest between Google and the government does not
imply some acquiescence or agreement between them to
conduct searches in an informal, clandestine manner.

13a
Simply put, Google’s continued actions in its own interest and the government’s continued receipt of the reports does not give rise to some form of agency. See Stevenson, 727 at 831 (holding an ESP’s “voluntary efforts
to achieve a goal that it shares with law enforcement”
does not make it a government agent).
This case is also distinguishable from Carpenter.
There, the Supreme Court reversed the Sixth Circuit
Court of Appeals, which held the defendant lacked a
reasonable expectation of privacy in cell-site location
data from his phone because the defendant shared that
information with his wireless carriers. 138 S. Ct. at
2213. Here, we find the search appropriate under the
private search doctrine, not the third-party doctrine
exception. See United States v. Jacobsen, 466 U.S. 109
(1984). Cf. Carpenter, 138 S. Ct. at 2217 (not extending
third-party doctrine exception to cell phone location
records).
Because Investigator Alberico searched only the
same files that Google searched, the government did
not expand the search beyond Google’s private party
search. See Jacobsen, 466 U.S. at 115-18 (“The additional invasions of respondents’ privacy by the government agent must be tested by the degree to which they
exceeded the scope of the private search.”); c.f. United
States v. Ackerman, 831 F.3d 1292, 1305-07 (10th Cir.
2016) (concluding that NCMEC qualified as a governmental entity that searched defendant’s e-mail in a way
that exceeded an earlier private search). Ringland insists that NCMEC’s search, however, went beyond the
scope of the search Google conducted. Even if true, Investigator Alberico’s search warrant applications did
not contain information from NCMEC’s searches. Thus,
we need not decide whether NCMEC is a government

14a
agency or whether it expanded its search beyond
Google’s search.
IV.
Accordingly, we affirm the judgment of the district
court.
_____________________________________

15a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF
AMERICA,
Plaintiff,
vs.

8:17CR289
MEMORANDUM
AND ORDER

MARK RINGLAND,
Defendant.
This matter is before the Court on the Findings and
Recommendation (F&R), ECF No. 74, issued by Magistrate Judge Michael D. Nelson, recommending that
the Motion to Suppress, ECF No. 47, and Motion to
Suppress and Application for Franks Hearing, ECF
No. 49, filed by the Defendant, Mark Ringland, be denied. Ringland filed an Objection to the Findings and
Recommendation and a brief in support, ECF No. 75,
as allowed by 28 U.S.C. § 636(b)(1)(C) and NECrimR
59.2(a). The Government did not respond to the Objection. For the reasons set forth below, the F&R will
be adopted and the Motion to Suppress will be denied.
BACKGROUND
Defendant is charged with receipt of child pornography and possession of child pornography. Indictment, ECF No. 20. Ringland does not object to the
Magistrate Judge’s findings of fact included in the
F&R, but objects to the Magistrate Judge’s failure to

16a
include each and every fact contained in Ringland’s
Supplemental Brief, ECF No. 70 at 2-24. The Court
has reviewed the record and each of the facts listed in
Ringland’s briefs, and concludes that the Magistrate
Judge did not err in failing to restate every fact listed
in Ringland’s briefs. Several of Ringland’s asserted
facts are descriptions of the law, legal argument, or
legal conclusions. Each of the facts stated by the Magistrate Judge is supported by the record. To the extent
certain facts were omitted, the F&R demonstrates
that the Magistrate Judge considered all the evidence
and did not omit any material facts.
The Court adopts the Magistrate Judge’s factual
findings in their entirety and provides the following
by way of summary.
Investigator C.J. Alberico of the Nebraska State
Patrol investigated Ringland’s conduct, leading to the
charges filed in this case. TR. 1 55; D.E. 2 163. According to Alberico, Google, Inc. (Google) first provided
information to the National Center for Missing and
Exploited Children (NCMEC) that a user of Google’s
services “had uploaded over seven hundred (700) files
suspected of depicting sexually explicit conduct involving a minor.” D.E. 109 at 7. Google identified the
user by email address, mringland69@gmail.com, with
associated telephone number 402-***-0642. Several
IP addresses were associated with the uploaded files,
which NCMEC traced to Sprint PCS in Omaha, Nebraska. Based on this information, on April 17, 2017,
NCMEC created seven CyberTipline reports:
References to “TR” are to the Transcript of the evidentiary hearing at ECF No. 68.

1

References to G.E. and D.E. are to Government’s Exhibit and
Defendant’s Exhibit, respectively.
2

17a
#19083866, #19153972, #19938982, #19986242,
#20035870, #20260729, and #20293287. D.E. 163 at 1.
Deputy Mark Dishaw, of the Douglas County, Nebraska, Sheriff’s Office, testified that an electronic
service provider (“ESP”), such as Google, has proprietary methods to filter and identify known child pornography images based on hash values. TR. 21-22, 2425,51-53. The ESP then views the file images and reports potential violations to NCMEC which generates
CyberTipline reports to send to law enforcement. TR.
14-16. Law enforcement then reviews the files identified by the ESP.
On June 23, 2017, Alberico received CyberTipline
Report #20437297, which Google previously submitted to NCMEC. On June 27, 2017, Alberico prepared
a Douglas County search warrant affidavit, search
warrant, and non-disclosure order for the email account mringland69@gmail.com, associated with telephone number 402-***-0642. D.E. 163 at 1-2; D.E.
109-110. Alberico stated in her affidavit supporting
the application that Google “reviewed five hundred
and two (502) files from the CyberTips submitted” and
that she “only viewed files that were reviewed by
Google . . . to confirm they depicted child pornography.” D.E. 109 at 7. Alberico obtained a warrant to
search the account.
Alberico observed that email address mringland69@gmail.com had sent child erotica photographs and images of child pornography to the email
address mringland65@gmail.com. D.E. 163 at 2. On
July 19, 2017, Alberico received CyberTipline reports
#21681475 and #22346425. These reports listed the
email address markringland65@gmail.com, with associated telephone 402-***-0902, and a secondary email

18a
address, mringland69@gmail.com. NCMEC traced
several of the IP addresses associated with the uploaded files to Sprint PCS in the Omaha area, and
Google provided the name “Mark Ringland” associated with the two email addresses. D.E. 163 at 2. Pursuant to a subpoena served by Alberico on July 20,
2017, Sprint PCS identified the subscriber of telephone number 402-***-0902 as Mark Ringland, residing at 1904 Pleasantview Ln, Bellevue, Nebraska
68005.
On August 7, 2017, Alberico received nine more
CyberTipline
reports:
#22968026,#22968382,
#22968534, #23001904, #23002061, #2302151,
#23002255, #23043174, and #23043630, all of which
were associated with the email address markringland65@gmail.com. On the same date, Alberico prepared a Douglas County search warrant affidavit,
search warrant, and non-disclosure order for the
email
accounts
mringland65@gmail.com
and
markringland65@gmail.com, associated with telephone number 402-***-0902. D.E. 122-123.
On August 14, 2017, Alberico received five additional CyberTipline reports, #23245909, #23274478,
#23249764, #23249764 and #23068622, and on August 25, 2017, six more, #23411893, #23488795,
#23512952, #23545730, #23588762, and #233890937.
All the reports were associated with email addresses
markringland65@gmail.com
and
mringland69@gmail.com, and the telephone number 402***-0902. D.E. 163 at 4.
On August 18, 2017, Alberico received information
from Google pursuant to the previous search warrant.
Alberico reviewed files from Google and concluded

19a
that several of the files contained images and/or videos of suspected child pornography and bestiality.
D.E. 124 at 10. Based on that information, Alberico
applied for a United States District Court search and
seizure warrant affidavit, search warrant, and nondisclosure order for a cellular ping order for telephone number 402-***-0902, which was presented to
and signed by a United States Magistrate Judge. D.E.
124-125; D.E. 163 at 4.
Alberico located Mark Ringland in the Nebraska
Criminal Justice System (NCJIS), which indicated
that a black Ford Windstar SE sport van with Nebraska license plate number UZP192 was registered
to Ringland in June 2017, and that as of August 2017,
the vehicle’s registration address was 16406 Taylor
Street, Omaha, NE 68116. Nebraska Department of
Labor records indicated that Ringland was employed
by Merrick Machine Company, located in Alda, Nebraska, and by the temporary agency Essential Personnel Inc., based out of Grand Island Nebraska, with
hub offices in Kearney, Nebraska and Denver, Colorado. D.E.163 at 3.
On September 1, 2017, Alberico obtained a United
States District Court search warrant for Ringland’s
person and cellular telephone, phone number 402-***0902, D.E. 126-127, and a criminal complaint and arrest warrant. On the same date, law enforcement executed a search warrant at 16406 Taylor Street in
Omaha, and arrested Ringland pursuant to the warrant. Ringland was read his Miranda rights, which he
waived, and consented to an interview. D.E. 163 at 4.
Alberico indicated in her report that on September 5,
2017, Ringland made spontaneous statements to the
United States Marshals transporting him for his initial hearing. D.E. 163 at 4-5.

20a
Ringland seeks to suppress all evidence seized in
connection with the searches of his email accounts,
and any incriminatory statements made after his arrest and during transportation to his initial appearance. Ringland argues that Google acted as a government agent when it searched his emails without a
warrant and forwarded those contents to NCMEC;
that NCMEC expanded upon Google’s warrantless
searches; and that the warrants obtained by Alberico were supported in substantial part by such
warrantless searches. Ringland also seeks a hearing
under Franks v. Delaware, 438 U.S. 154 (1978), arguing that the applications supporting the warrants in
this case omitted information material to the probable
cause determination. The Magistrate Judge recommends that both motions be denied. Ringland objects
to the Magistrate Judge’s conclusions. Although Ringland asserts twelve different objections, many of them
overlap and each is addressed below.
STANDARD OF REVIEW
Under 28 U.S.C. § 636(b)(1)(C) and NECrimR
59.2(a), the Court shall make a de novo review of the
portions of the Magistrate’s Findings and Recommendation to which objections have been made. The Court
may accept, reject, or modify, in whole or in part, the
Magistrate Judge’s findings and recommendations.
The Court may also receive further evidence or remand the matter to the Magistrate Judge with instructions.
DISCUSSION
I. Franks Hearing
Affidavits supporting a search warrant are presumed valid. Franks v. Delaware, 438 U.S. 154, 171

21a
(1978). “Under Franks, a criminal defendant may request a hearing to challenge a search warrant on the
ground that the supporting affidavit contains factual
misrepresentations or omissions relevant to the probable cause determination.” United States v. Arnold,
725 F.3d 896, 898 (8th Cir. 2013). To meet the burden
of demonstrating that such a hearing is warranted,
the defendant must make “a substantial preliminary
showing.” Franks, 438 U.S. at 155. The defendant
must demonstrate that the affidavit supporting the
warrant “contained false statements or omissions that
were material to the finding of probable cause,”
United States v. Oleson, 310 F.3d 1085, 1090 (8th Cir.
2002). “The type of showing required is not easily
met.” United States v. Gabrio, 295 F.3d 880, 883 (8th
Cir. 2002).
Ringland argues that he is entitled to a Franks
hearing because Alberico did not include in her warrant applications that there were other geographic locations and internet protocol (IP) addresses associated with images outlined in the NCMEC CyberTipline reports. Ringland also argues that he is entitled
to a Franks hearing because only a small portion of
the files was categorized as “apparent child pornography.” Finally, Ringland argues that Google and
NCMEC were state actors for purposes of the Fourth
Amendment and therefore their warrantless searches
of his personal email and phone numbers were unconstitutional. Upon review of the record, none of these
arguments entitles Ringland to a Franks hearing.
A. IP Addresses and Geographic Locations
It is undisputed that Alberico did not include information about other IP addresses contained in the

22a
NCMEC CyberTipline reports in the affidavit. Yet information in the affidavit related to Ringland’s identity was sufficient to support a probable cause finding.
The record demonstrates that the CyberTipline reports identified email addresses and a phone number
connected to Ringland. For example, the first application stated that the tips were related to the email address markringland69@gmail.com and phone number
402-xxx-0642. The second warrant application identified
markringland65@gmail.com
and
mringland69@gmail.com, as well as the phone number 402xxx-0902. Based on the information obtained from the
first two warrants and independent investigation, investigators obtained a ping warrant that led them to
Ringland’s geographic location. The issuing judge reasonably relied on information about the phone number repeatedly appearing in reports to issue the ping
warrant that identified Ringland’s precise geographic
location, regardless of the IP addresses or geographic
locations associated with them. The omission of information regarding additional IP addresses did not diminish the evidence supporting probable cause. Accordingly, the Court adopts the Magistrate Judge’s
conclusion.
B. Categorization of Files as Apparent Child
Pornography
Each report from NCMEC contains an executive
summary that describes the total number of uploaded
files sent by Google and contains NCMEC’s categorization of the material contained in those files, e.g.,
“Apparent Child Pornography” or “Uncategorized.”
D.E. 101-108; 112-121; & 128-143. Ringland notes
throughout his briefing that the great majority of the
files were deemed “uncategorized,” and the Court infers that he suggests such files did not contain child

23a
pornography and the omission of this fact from the
application was misleading. 3
Dishaw’s testimony demonstrated that the “uncategorized” label was not an indication that a file contained no child pornography. Rather, the files that
were categorized as potentially containing child pornography were ones that had been flagged by hash
values. TR. 52. Files that were “uncategorized” were
not tagged by hash values but were identified as containing child pornography through some other
method. Id. In Alberico’s application, she stated that
she reviewed 502 image files identified and viewed by
Google, and confirmed they depicted child pornography. Thus, even though the files were labeled as “uncategorized” in the NCMEC executive summary, there
is evidence that they contained child pornography.
C. Google and NCMEC as State Actors
Ringland argues that Google and NCMEC were
state actors and conducted an illegal search under the
Fourth Amendment. This argument is the principal
basis for Ringland’s motion to suppress. For the reasons stated below, the Court cannot conclude that
Google or NCMEC conducted an illegal search or that
Alberico impermissibly examined the files prior to requesting a warrant. Accordingly, Ringland is not entitled to a Franks hearing on that basis.
II. Motion to Suppress
Ringland argues that his Fourth Amendment
rights were violated when Google and NCMEC
searched his email accounts without a warrant. RingRingland never expressly describes his argument with respect
to the uncategorized files.
3

24a
land argues that Google was a government actor because its purpose was to help law enforcement and the
government knew Google was searching Ringland’s
emails. Ringland also argues that NCMEC impermissibly expanded the scope of Google’s search.
The Fourth Amendment demands that people
shall “be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, .
. . and no Warrants shall issue, but upon probable
cause. . . .” U.S. Const., amend. IV. “The Fourth
Amendment applies only to state action, so it does not
constrain private parties unless they act as agents or
instruments of the government.” United States v. Stevenson, 727 F.3d 826, 829 (8th Cir. 2013) (citing
United States v. Jacobsen, 466 U.S. 109, 113 (1984)).
For purposes of the Fourth Amendment, private parties act as agents of the government when “a statute
or regulation compels a private party to conduct a
search” or “a statute or regulation so strongly encourages a private party to conduct a search that the
search is not primarily the result of private initiative.”
Id. (internal quotation marks and citation omitted).
The statutes at issue in this case do not compel or
“strongly encourage” disclosure of private information. The Stored Communications Act, 18 U.S.C. §
2701, generally prohibits computing service providers
from disclosing contents of accounts except under specific, enumerated circumstances. Section 2702(b)(6)
provides that service providers may “divulge the contents of a communication . . . to the National Center
for Missing and Exploited Children, in connection
with a report submitted thereto under section 2258A.”
Section 2258A requires service providers to report to
the NCMEC any apparent violation of the child pornography laws discovered while providing electronic

25a
communication services. Stevenson, 727 F.3d at 829
(citing 18 U.S.C. § 2258A(a)).
The Eighth Circuit has held that the reporting requirement of § 2258A, standing alone, “does not transform an [i]nternet service provider into a government
agent whenever it chooses to scan files sent on its network for child pornography.” Id. at 831. Instead,
courts must consider several factors to determine
whether a private party acts as an instrument of the
government. See id. at 830 (citing United States v.
Smith, 383 F.3d 700, 705 (8th Cir. 2004). These factors include “(1) whether the government had
knowledge of and acquiesced in the intrusive conduct;” (2) “whether the citizen intended to assist law
enforcement agents or instead acted to further his
own purposes;” and (3) “whether the citizen acted at
the government's request.” Smith, 383 F.3d at 705.
Applying these factors to Google and NCMEC, the
Magistrate Judge correctly concluded that these entities were not government actors for purposes of the
Fourth Amendment.
A. Google
There is no evidence that Google searched Ringland’s email accounts at the Government’s request.
Ringland argues that the § 2258A’s statutory scheme
nevertheless “strongly encouraged” the search. However, the Eighth Circuit has held that § 2258A’s reporting requirements are not sufficient on their own
to make Google a government actor. Stevenson, 727
F.3d at 831.
There is also no evidence that Google acted with
intent to assist government agents rather than to further its own purposes. Cathy McGoff, Senior Manager,
Law Enforcement and Information Security at

26a
Google, stated Google’s terms of service prohibit using Google’s services in violation of law. McGoff Decl.,
ECF No. 73-2 at 1. The terms of service also provide
that Google “may review content to determine
whether it is illegal or violates our policies, and we
may remove or refuse to display content that we reasonably believe violates our policies or the law.” Id. at
1-2. McGoff explained that Google has a “strong business interest in enforcing our terms of service and ensuring that our services are free of illegal content, including in particular child sexual abuse material.” Id.
at 2. For this reason, Google “independently and voluntarily take[s] steps to monitor and safeguard our
services against this content because users will
stop using our services if they become associated with
being a haven for abusive content.” Id. Google discovered the images using its own hash values and reviewers, and the searches furthered Google’s own
business interests. Id. at 3. Forwarding the images to
NCMEC consistent with § 2258A did not make Google
a government actor, nor does it indicate that Google
acted with intent to aid law enforcement.
Ringland argues that Google’s intent to aid law enforcement is demonstrated by its accelerated investigatory efforts after the initial report to NCMEC and
the fact that Google connected Ringland’s two email
addresses. Ringland argues that “protracted, independent investigatory acts suggest that Google remained an active participant in this investigation well
beyond the initial CyberTips.” Yet Ringland cites no
authority to support his theory that once a private actor becomes aware of potentially illegal conduct it
must cease further investigation. After Google became
aware of potential issues with Ringland’s accounts, it
reasonably investigated to determine whether there

27a
were other potential violations of the terms of service.
These actions furthered Google’s legitimate business
interests and Google did not violate the Fourth
Amendment by fulfilling its reporting requirements
under § 2258A.
Finally, there is no evidence that the government knew of or acquiesced to Google’s conduct,
giving rise to any violation the Fourth Amendment.
As the Magistrate Judge noted, “voluntary efforts to
achieve a goal that it shares with law enforcement do
not, by themselves, transform the company into a government agent.” F&R, ECF No. 74 at 10 (quoting Stevenson, 727 F.3d at 831). Although Google actively investigated and reported information about Ringland’s
accounts, there is no evidence that it did so at the request of government officials.
B. NCMEC
Ringland argues that even if Google was not a government actor, NCMEC violated the Fourth Amendment when it expanded the searches initiated by
Google. The Eighth Circuit has not addressed this
subject, but other circuits have. The Tenth Circuit
concluded that NCMEC is a government agent when
it expands upon the scope of a service provider’s investigation without a warrant. See United States v.
Ackerman, 831 F.3d 1292, 1306–07 (10th Cir. 2016).
Conversely, where the NCMEC only views files
flagged as containing child pornography, it does not
violate the Fourth Amendment. United States v. Reddick, 900 F.3d 636, 639–40 (5th Cir. 2018). The Magistrate Judge concluded there was no evidence that
NCMEC viewed more files than those reviewed by
Google. Ringland “strenuously objects” to the Magistrate Judge’s conclusion, arguing that NCMEC

28a
viewed several files that Google had not. See F&R,
ECF No. 74 at 10.
In Alberico’s affidavit supporting her initial warrant application, she stated that Google reviewed 502
of the 1,216 files submitted to NCMEC. See D.E. 109
at 7. The Magistrate Judge concluded that this case is
like Reddick because Alberico stated she only reviewed those 502 files. Ringland objects to this conclusion because the executive summary of initial
CyberTip reports refers to “over 700 uploaded files.”
D.E. 109 at 1. The Court infers that Ringland argues
this case is more like Ackerman because NCMEC admitted it reviewed more files than Google reviewed.
The affidavit supporting the initial warrant relied
on Google’s and Alberico’s review of the same files. Alberico acknowledged that the initial CyberTip reports
included 1,216 files, but she affirmed that she viewed
only the files already reviewed by Google. Thus, even
if NCMEC viewed more than 502 files, the initial application relied only on the 502 files already reviewed
by Google.
Ringland does not explain how NCMEC’s review
could have tainted the application. John Shehan, 4
Vice President of the Exploited Children Division of
the NCMEC, testified that NCMEC is not required to
Ringland objects to the Magistrate Judge’s failure to find that
Shehan’s declaration was not credible. In support, Ringland offers Shehan’s testimony in another case, United States v. Miller,
No. CR 16-47-ART-CJS, 2017 WL 9325815 (E.D. Ky. May 19,
2017), report and recommendation adopted, No. CV 16-47-DLBCJS, 2017 WL 2705963 (E.D. Ky. June 23, 2017), where Shehan
failed to mention NCMEC’s program that prevents NCMEC employees from reviewing files that had not been reviewed by the
private service provider. Because NCMEC’s program is not material to the Court’s decision, the objection is overruled.
4

29a
review any files, and that it does so in furtherance of
its private mission to aid children. G.E. 1 at 4. Shehan
testified that after compiling CyberTipline reports,
NCMEC forwards them to law enforcement for review. Id. at 5. Although CyberTipline reports triggered an investigation in this case, the application
and ensuing warrant relied on Alberico’s statement
that she reviewed only files reviewed by Google. Accordingly, the Magistrate Judge’s conclusion was not
erroneous.
III.Good Faith
Ringland objects to the Magistrate Judge’s conclusion that the good faith exception to the exclusionary
rule applies to this case. Even where probable cause
is lacking, an exception to the exclusionary rule applies where officers rely on a warrant in good faith.
United States v. Hessman, 369 F.3d 1016, 1019 (8th
Cir. 2004). In United States v. Leon, 468 U.S. 897
(1984), the Supreme Court curtailed the use of the exclusionary rule as a remedy for unconstitutional
searches and noted that the stated purpose of the exclusionary rule is “to deter police misconduct rather
than to punish the errors of judges and magistrates.”
Id. at 916 (emphasis in original). “In the absence of an
allegation that the magistrate abandoned his detached and neutral role, suppression is appropriate
only if the officers were dishonest or reckless in preparing their affidavit or could not have harbored an
objectively reasonable belief in the existence of probable cause.” Id. at 920.
There is no allegation that the issuing judge wholly
abandoned a detached and neutral role. Nor is there
evidence that law enforcement officers were dishonest
or misleading in preparing the Affidavit. Instead,

30a
Ringland argues that the good-faith exception does
not apply in this case because the warrants were the
product of illegal searches. For the reasons stated
above, the Court concludes that the warrants were not
illegal searches. Moreover, as addressed above, Albericio based her initial application on her own review of
the files Google reviewed. Subsequent applications
reasonably relied on information obtained under valid
search warrants. Accordingly, the Magistrate Judge
correctly concluded that the warrants were within the
Leon good faith exception.
CONCLUSION
For the reasons discussed, the Findings and Recommendation will be adopted, and the Motions to
Suppress and request for Franks hearing will be denied.
IT IS ORDERED:
1. The Findings and Recommendation, ECF No.
74, are adopted in their entirety;
2. The Motion to Suppress, ECF No. 47, and Motion to Suppress and Application for Franks
Hearing, ECF No. 49, filed by the Defendant,
Mark Ringland, are denied; and
3. The Objection to the Findings and Recommendation, ECF No. 75, is overruled.
Dated this 2nd day of January, 2019.
BY THE COURT:
s/Laurie Smith Camp
Senior United States District Judge

31a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF
AMERICA,
Plaintiff,
vs.

8:17CR289
FINDINGS AND
RECOMMENDATION

MARK RINGLAND,
Defendant.
This matter is before the Court on the Motion to
Suppress Evidence and Statements and Request for
Evidentiary Hearing (Filing No. 47) and the Motion to
Suppress, Application for Franks Hearing, and Request for Evidentiary Hearing and Oral Argument
(Filing No. 49) filed by Defendant, Mark Ringland.
Defendant filed briefs in support of both motions (Filing No. 48; Filing No. 50) and the government filed a
brief in opposition (Filing No. 58).
The Court held an evidentiary hearing on Defendant’s motions on July 19, 2018, and a transcript (TR.)
of the hearing was prepared and filed on August 4,
2018. (Filing No. 68). Defendant was present with his
attorney, Richard McWilliams. The government was
represented by Assistant United States Attorney, Michael Norris. Mark Dishaw (“Deputy Dishaw”), a Deputy with the Douglas County Sheriff’s Office and an
assigned Investigator to the FBI Child Exploitation
Task Force, testified on behalf of the government. The

32a
Court received into evidence, without objection, Exhibit 1 (Declaration of John Shehan) and Exhibit 2
(DVD of seven (7) CyberTipline Reports) offered by the
government, and Exhibits 101-163 offered by Defendant. (TR. 6, 56). Exhibits 101-108, 111-121, and 128143 constitute thirty-five CyberTipline reports. Exhibits 109-110, 122-123, 124-125, and 126-127 constitute the four separate applications and warrants relevant to Defendant’s motions.
The Court granted Defendant’s oral request to file
supplemental briefing following the evidentiary hearing; Defendant filed a supplemental brief on August
10, 2018, (Filing No. 70) and the government filed a
supplemental brief on August 30, 2018, (Filing No.
73). The government’s supplemental brief incorporates two attachments marked as “Exhibit 1” (Filing
No. 73-1 - Google’s Terms of Service) and “Exhibit 2”
(Filing No. 73-2 - Declaration of Cathy A. McGoff). 1
This matter is now fully submitted to the Court. For
the following reasons, the undersigned magistrate
judge recommends that Defendant’s motions be denied.
BACKGROUND
Defendant is charged in a two-count Indictment
with receipt of child pornography and possession of
child pornography under 18 U.S.C. §§ 2252(a)(2),
(a)(4)(B) and (b)(2). (Filing No. 20). Investigator C.J.
To avoid confusing these post-hearing exhibits with Exhibits 1
and 2 received at the evidentiary hearing, hereinafter, the posthearing exhibits will be referred to by their filing numbers. The
government requested that the evidentiary record remain open
until all briefs were submitted, without objection, although the
parties later agreed that a motion would be filed to reopen the
record for the Court’s consideration. (TR. 11, 57-58, 69).
1

33a
Alberico (“Investigator Alberico”) of the Nebraska
State Patrol prepared a report (Exhibit 163) that “provides a pretty succinct timeline” of her investigation
leading up to the charges being filed in this case. (TR.
55; Ex. 163). According to Investigator Alberico’s report, Google, Inc. (“Google”) first provided information to the National Center for Missing and Exploited Children (“NCMEC”) that a user of Google’s
services “had uploaded over seven hundred (700) files
suspected of depicting sexually explicit conduct involving a minor.” Google identified the user by email
address, mringland69@gmail.com, with associated
telephone number 402-***-0642. 2 Several IP addresses were associated with the uploaded files, which
NCMEC traced to Sprint PCS in Omaha, Nebraska.
Based on this information, on April 17, 2017, NCMEC
created seven CyberTipline Reports: #19083866,
#19153972, #19938982, #19986242, #20035870,
#20260729 and #20293287. (Ex. 163 at p. 1). Exhibit
2 includes these seven CyberTipline Reports containing the 502 images viewed by Investigator Alberico.
(TR. 10). On May 12, 2017, Investigator Alberico submitted a preservation letter to Google for the email account mringland69@gmail.com. (Ex. 163 at p. 1).
Deputy Dishaw explained the general process of
how CyberTipline reports are generated and provided
to law enforcement. Deputy Dishaw testified that electronic service providers (“ESP”) such as Google have
proprietary methods to filter and identify known child
On May 16, 2017, Investigator Alberico served a subpoena on
Sprint to identify the subscriber information associated with telephone number 402-***-0642. Sprint identified the subscriber
as “H. L.,” residing at an address in Carter Lake, Iowa. Investigator Alberico’s investigation ultimately did not link H.L. to
this case. (Ex. 163 at p. 1).
2

34a
pornography images based on hash values. (TR. 2122, 24-25,51-53). The ESP will then view the file images and report potential violations to NCMEC, and
then NCMEC will generate CyberTipline reports to
send to law enforcement. (TR. 14-16). Deputy Dishaw
testified that, particularly after the ruling in United
States v. Ackerman, 831 F.3d 1292 (10th Cir. 2016),
investigators make sure that they are only reviewing
files that the ESP reviewed first and reported to
NCMEC. (TR. 16-17, 25-26, 52-53). Deputy Dishaw
explained that if NCMEC is not clear whether the
ESP reviewed a file, NCMEC will make a notation for
the investigator, and then the investigator will contact the ESP to confirm whether or not the ESP
viewed the file. Deputy Dishaw testified that if the
ESP confirms it did not view the file, he will obtain a
search warrant to view those files. (TR. 18).
Investigator Alberico continued to receive additional CyberTipline reports subsequent to the initial
seven provided to her on April 17, 2017. On June 23,
2017, Investigator Alberico received CyberTipline Report #20437297, which Google had previously submitted to NCMEC. 3 On June 27, 2017, Investigator Alberico prepared a Douglas County search warrant affidavit, search warrant and non-disclosure order for
the email account mringland69@gmail.com, associated with telephone number 402-***-0642. (Ex. 163
at pp. 1-2; Ex. 109-110). In obtaining the warrant, Investigator Alberico averred that Google “reviewed five
hundred and two (502) files from the CyberTips subInvestigator Alberico’s affidavit dated August 7, 2017, submitted with an application for a search warrant in Douglas County
states that the two images from the June 23, 2017, CyberTip
(#20437297) were not viewed by Google. (Ex. 122 at p. 6).
3

35a
mitted” and that she “only viewed files that were reviewed by Google . . . to confirm they depicted child
pornography.” (Ex. 109 at p. 7). On the same date, Investigator Alberico submitted the warrant electronically to Google through the Law Enforcement Request
System (“LERS”). (Ex. 163 at p. 2).
On July 14, 2017, Investigator Alberico received
the contents requested by the search warrant via
FedEx from Google and saved the data to a digital
case file. In reviewing the data, Investigator Alberico
observed that email address mringland69@gmail.com
had sent child erotica photographs and images of child
pornography to the email address mringland65
@gmail.com. (Ex. 163 at p. 2). On the same date, the
South Dakota Bureau of Criminal Investigation
(“SDBCI”) contacted Investigator Alberico by email
stating that it had received information from NCMEC
that a case the SDBCI was working on was linked to
Alberico’s case. On July 19, 2017, Investigator Alberico received CyberTipline reports #21681475 and
#22346425, which were originally assigned to the
SDBCI. 4 These CyberTipline reports listed the email
address markringland65@gmail.com, with associated
telephone 402-***-0902, and a secondary email address, mringland69@gmail.com. NCMEC traced several of the IP addresses associated with the uploaded
files to Sprint PCS in the Omaha area, and Google
provided the name “Mark Ringland” associated with
the two email addresses. (Ex. 163 at p. 2). Pursuant
to a subpoena served by Investigator Alberico on July
20, 2017, Sprint identified the subscriber of telephone
number 402-***-0902 as Mark Ringland, residing at
Investigator Alberico averred that neither she nor Google reviewed these files. (Ex. 122 at p. 7).

4

36a
1904 Pleasantview Ln, Bellevue, Nebraska 68005. On
August 4, 2017, Investigator Alberico submitted a
preservation letter to Google for the email account
markringland65@gmail.com, associated telephone
number 402-***-0902. (Ex. 163 at pp. 2-3).
On August 7, 2017, Investigator Alberico received
nine more CyberTipline reports: #22968026,
#22968382, #22968534, #23001904, #23002061,
#2302151, #23002255, #23043174 and #23043630, all
of which were associated with the email address
markringland65@gmail.com. 5 NCMEC traced some of
the associated IP addresses to Sprint PCS, in the
Omaha, Lincoln, and Grand Island, Nebraska areas.
On the same date, Investigator Alberico prepared a
Douglas County search warrant affidavit, search warrant, and non-disclosure order for the email accounts
mringland65@gmail.com
and
markringland65@gmail.com, associated with telephone number
402-***-0902. (Ex. 122-123).
On August 14, 2017, Investigator Alberico received
five additional CyberTipline reports, #23245909,
#23274478, #23249764, #23249764 and #23068622,
and on August 25, 2017, received six more,
#23411893, #23488795, #23512952, #23545730,
#23588762 and #233890937. All the reports were associated with email addresses markringland65
@gmail.com and mringland69@gmail.com, and the
telephone number 402-***-0902. (Ex. 163 at p. 4).
On August 18, 2017, Investigator Alberico received
the search warrant response via LERS from Google
and saved the data to a digital case file maintained at
Investigator Alberico averred that neither she nor Google reviewed these files. (Ex. 126 at p. 13).

5

37a
her office. (Ex. 163 at pp. 3- 4). According to Investigator Alberico, several of the files contained images
and/or videos of suspected child pornography and bestiality. (Ex. 124 at p. 10). Based on the information
obtained during her investigation, on August 31,
2017, Investigator Alberico applied for a United
States District Court search and seizure warrant affidavit, search warrant, and non-disclosure order for a
cellular ping order for telephone number 402-***0902, which was presented to and signed by a United
States Magistrate Judge. (Ex. 124-125; Ex. 163 at p.
4).
On September 1, 2017, Investigator Alberico prepared a United States District Court search warrant
affidavit for Ringland’s person and cellular telephone,
phone number 402-***-0902, (Ex. 126-127), and a
criminal complaint (Filing No. 1) and arrest warrant
(Filing No. 3), which were signed by the undersigned
magistrate judge. On the same date, members of the
CETF, FBI, Nebraska State Patrol, and Douglas
County Sheriff’s Office implemented a search warrant
at 16406 Taylor Street in Omaha, and arrested Ringland pursuant to the warrant. According to Investigator Alberico’s report, Ringland was read his Miranda
rights, which he waived, and consented to an interview. (Ex. 163 at p. 4). Investigator Alberico further
indicated in her report that on September 5, 2017,
Ringland made spontaneous statements to the US
Marshals transporting him for his initial hearing. (Ex.
163 at pp. 4-5).
On September 5, 2017, Investigator Alberico received five more CyberTipline reports: #2360300,
#23625155, #23660907, #23697631, and #23729375,
which were associated with the email addresses
markringland65@gmail.com and mringland69@gmail

38a
.com, and telephone number 402-***-0902. (Ex. 163 at
p. 5). The Indictment was filed in this case on September 19, 2017. (Filing No. 20).
Defendant has filed the instant motions seeking
suppression of all evidence seized during the investigation from the searches of his email accounts and any
incriminatory statements he made after his arrest
and during transportation to his initial appearance.
(Filing Nos. 47, 49; TR. 55-56). Defendant argues that
Google acted as a government agent when it searched
his emails without a warrant and forwarded those
contents to NCMEC, that NCMEC expanded upon
Google’s warrantless searches, and that the warrants
obtained by Investigator Alberico were supported in
substantial part by such warrantless searches. (Filing
No. 47 at pp. 1-2). Defendant also seeks suppression
of evidence and a hearing pursuant to Franks v. Delaware, 438 U.S. 154 (1978), arguing that the warrants
were issued upon misleading applications that omitted material information. Defendant separately argues that the applications in support of the warrants
included information obtained by unconstitutional
searches by government agents, and that no probable cause exists if that information was excluded from
the warrant application. (Filing No. 49 at p. 1).
ANALYSIS
A. Defendant’s Request for Franks Hearing
Defendant argues he is entitled to a Franks hearing both because material facts were intentionally
omitted from the four search warrant applications
and because the four search warrant applications included information and evidence that had been obtained through unconstitutional warrantless searches

39a
by Google and NCMEC. (Filing No. 49 at p. 3). A criminal defendant may request a hearing to challenge a
search warrant on the ground that the supporting affidavit contains factual misrepresentations or omissions relevant to the probable cause determination.
See Franks, 438 U.S. at 155-56. In order for a defendant to prevail on a request for a Franks hearing, the
defendant must make a “substantial preliminary
showing” that (1) the affiant “knowingly and intentionally” made reckless false statements or omissions
and (2) if the false information is excised (or the omitted information is included), the affidavit no longer establishes probable cause. United States v. Snyder, 511
F.3d 813, 816 (8th Cir. 2008). “The requirement of a
substantial preliminary showing is not lightly met[.]”
United States v. Arnold, 725 F.3d 896, 898 (8th Cir.
2013)(quoting United States v. Mathison, 157 F.3d
541, 548 (8th Cir. 1998)).
Defendant first contends he is entitled to a Franks
hearing because Investigator Alberico recklessly omitted from her warrant applications the fact that there
were other geographic locations and IP addresses associated with the images in the CyberTipline reports.
(Filing No. 50 at p. 2). Specifically, Defendant asserts
that although the initial eight CyberTiplines supporting the June 27, 2017, warrant application contained
two IP addresses that were traced to Sprint PCS in
Omaha, several other IP addresses were associated
with Des Moines, Chicago, Cleveland/Akron, the
Quad Cities, and Minneapolis. (Id. at pp. 5-6). Defendant contends that the August 7, 2017, warrant application similarly omitted the material information that
the two tips forwarded from the SDBCI were associated with IP addresses in Des Moines, Grand Island,
and Chicago, and that the other nine tips reported IP

40a
addresses in Dannebrog, Nebraska, Watertown,
South Dakota, Grand Island, and Raymore, Missouri.
Defendant also states the August 7, 2017, application
recklessly omitted the fact that, out of “the 11
CyberTips and 1113 files recounted in the application,
NCMEC identified only 22 as ‘apparent child pornography’ and labeled 1087 as ‘uncategorized.’” (Id. at pp.
6-7). Likewise, Defendant asserts the August 31,
2017, ping warrant application omitted “dozens” of
other IP addresses in ten other metropolitan areas
and did not mention that “only 1.9% of those 1,109
files had been characterized as ‘apparent child pornography’ and 98.1% were deemed “‘uncategorized.’”
(Id. at p. 7). Finally, Defendant argues the September
1, 2017, warrant application repeated all of the above
omissions and also included “fruits of the receipts”
from those warrants. (Id. at p. 8).
Upon review, the undersigned finds that Defendant has failed to demonstrate that the above omissions were material or necessary to a finding of probable cause. First, the omission of other IP addresses
contained in the CyberTipline reports from Investigator Alberico’s affidavits did not render the application
materially misleading. Deputy Dishaw explained the
difference between IP addresses assigned to a fixed
tower as opposed to a mobile device. Deputy Dishaw
testified that a fixed tower IP address can be geolocated to a certain area, whereas mobile service providers “have a limited number of IP addresses and cannot
provide for every single customer of theirs an IP address,” and therefore may need to assign an IP address from a different jurisdiction to a mobile user.
(TR. 34-35; 53-54). Unlike a fixed tower IP address,
therefore, a mobile IP address does not necessarily indicate the mobile user was accessing the internet in a

41a
certain geographic area; for example, a mobile user in
Omaha may be assigned an IP address from Atlanta
if one of the predetermined number of Omaha IP addresses were unavailable. (TR. 54). Moreover, as recognized by the government, Defendant is overstating
the significance of the IP addresses to the finding of
probable cause. (Filing No. 58 at p. 7). In this case, the
CyberTipline reports identified email addresses and a
phone number conclusively owned by Defendant
which were associated with the files that triggered
Google’s reporting, making it very likely that a judge
would have found sufficient probable cause to issue
the warrant even had information about the other IP
addresses been included in the affidavits. Therefore,
the undersigned finds that any omitted information
regarding the additional IP addresses would not have
impacted the finding of probable cause in this case.
See, e.g., United States v. Miller, No. 8:15CR172, 2015
WL 5824024, at *3 (D. Neb. Oct. 6, 2015)(rejecting
similar argument that omission of other IP addresses
from CyberTipline Reports rendered warrant application misleading).
Defendant’s argument that the warrant applications recklessly omitted the breakdown of how many
files were identified by NCMEC as “uncategorized”
versus “apparent child pornography” is also unavailing. Deputy Dishaw explained the differences in
NCEMC designations of “apparent child pornography” versus “uncategorized.” Deputy Dishaw testified
that “apparent” child pornography files have been
flagged by hash values, whereas “uncategorized”
means the file was identified in manner other than by
hash value; the fact that the file is labeled “uncategorized” does not exclude it from being child pornogra-

42a
phy. (TR. 52-53). More importantly, Investigator Alberico averred in her warrant application that she reviewed 502 images identified and viewed by Google,
and confirmed they depicted child pornography. Accordingly, the fact that NCMEC designated other files
as “uncategorized” has no bearing on the finding of
probable cause, and as such, its omission from the
warrant applications was not misleading.
Defendant’s second argument in support of his request for a Franks hearing is tied to his separate motion to suppress (Filing No. 47); he contends that
Google and NCMEC were state actors for purposes of
the Fourth Amendment and that therefore their warrantless searches of his personal email and phone
numbers were unconstitutional, and that such unconstitutionally obtained evidence impermissibly formed
the “the entirety” of the probable cause supporting the
warrants. (Filing No. 50 at p. 2). The undersigned will
address Defendant’s arguments in detail below, but
in short, finds that the searches of Defendant’s
email and phone numbers were constitutional under
the Fourth Amendment. Accordingly, the inclusion of
such evidence in the warrant applications was not
reckless or otherwise improper. Therefore, the undersigned recommends Defendant’s request for a Franks
hearing be denied.
B. Motion to Suppress Evidence
Defendant argues that his Fourth Amendment
rights were violated when Google searched his email
accounts without a warrant, and that all evidence obtained directly or indirectly from that search and the
several subsequent searches should be suppressed.
The Fourth Amendment only applies to state action and its protection against unreasonable searches

43a
and seizures “is wholly inapplicable to a search or seizure . . . effected by a private individual not acting as
an agent of the Government.” United States v. Jacobsen, 466 U.S. 109, 113 (1984). Defendant contends
that Google effectively acted as a government agent
under the Fourth Amendment when it undertook repeated searches of his email accounts and reported
suspected child pornography to NCMEC. (Filing No.
48 at p. 3).
As previously discussed by the Eighth Circuit
Court of Appeals, an internet service providers’ fulfillment of child pornography reporting requirements under 18 U.S.C. § 2258A, standing alone, “does not
transform an Internet service provider into a government agent whenever it chooses to scan files sent on
its network for child pornography.” United States v.
Stevenson, 727 F.3d 826, 830 (8th Cir. 2013)(concluding AOL did not act as a government agent when it
scanned a user’s e-mail and reported apparent child
pornography to NCMEC). Recognizing this Eighth
Circuit precedent, Defendant asserts that Riley v. California, 134 S. Ct. 2473 (2014) has implicitly affected
the decision in Stevenson because the Supreme Court
“held that law enforcement needs a warrant before
they can search the content of an individual’s cell
phone.” (Filing No. 58 at p. 4). While the Supreme
Court in Riley makes it clear that law enforcement
generally needs to obtain a search warrant before
searching data on cell phones, the decision in Riley
does not address or discuss the propriety of a search
by a private party such as Google. In this case, it is
undisputed that Google is a private, for profit entity.
Google’s Senior Manager of Law Enforcement and Information Security submitted a sworn declaration
indicating that Google implemented its “proprietary

44a
hashing technology” based on its “private, non-governmental interests” and based on its “strong business interest in enforcing our terms of service and ensuring
that our services are free of illegal content, including[,] in particular[,] child sexual abuse material.”
(Filing No. 73-2 at p. 2). A private internet service provider’s “voluntary efforts to achieve a goal that it
shares with law enforcement do not, by themselves,
transform the company into a government agent.” Stevenson, 727 F.3d at 831. The undersigned therefore
concludes Google simply complied with its statutory
duty to report violations of child pornography laws
and did not become a state actor by conducting its own
searches of Defendant’s email accounts to protect its
own private, non-governmental interests.
Defendant next argues that, even if the Court concludes that Google’s searches fall under the private
search doctrine, his Fourth Amendment rights were
nevertheless violated because NCMEC expanded
upon Google’s private search. (Filing No. 48 at pp. 56). Defendant relies on United States v. Ackerman,
831 F.3d 1292 (10th Cir. 2016), wherein the Tenth
Circuit concluded that NCMEC is a government agent
that violated the Fourth Amendment by expanding
upon the scope of a private internet service provider’s
investigation without a warrant. In Ackerman, the
undisputed facts established that NCMEC opened
and viewed information other than the image flagged
by AOL’s hash values as known child pornography
and had not been previously examined by AOL. Therefore, the Tenth Circuit found that NCMEC exceeded,
and did not merely repeat, the internet service provider’s private search in violation of the Fourth
Amendment. See Ackerman, 831 F.3d at 1306-07; see
United States v. Boyer, 914 F.2d 144, 146 (8th Cir.

45a
1990)(“[T]he government may not exceed the scope of
the private search unless it has the right to make an
independent search[.]”). Conversely, in United States
v. Reddick, 900 F.3d 636, 637 (5th Cir. 2018), the Fifth
Circuit found that law enforcement did not violate the
Fourth Amendment because the investigator “reviewed only those files whose hash values corresponded to the hash values of known child pornography images” as ascertained by the internet service
provider’s system. Id. at 640.
In this case, the undersigned finds that the evidence does not support Defendant’s assertion that
NCMEC viewed more files than those identified and
reviewed by Google. Therefore, this case is more like
Reddick than Ackerman. Between March 20, 2017 and
April 18, 2017, Google identified and reported 1,216
instances of suspected child pornography linked to
email accounts owned by Defendant to NCMEC.
Google reported having viewed 502 of these files. In
her affidavit, Investigator Alberico attested that she
viewed the same 502 images that has been reviewed
by Google. (Ex. 109 at p. 7). The evidence did not establish that NCMEC reviewed more files than those
reviewed by Google, and it is clear that Investigator
Alberico’s review did not exceed the scope of the private search done by Google. Accordingly, the Fourth
Amendment is not implicated, and the undersigned
therefore recommends that Defendant’s motion to
suppress be denied.
Finally, Defendant argues that the good faith exception does not apply in this case. (Filing No. 70 at p.
39). An exception to the exclusionary rule applies
where officers rely on a warrant in good faith. United
States v. Hessman, 369 F.3d 1016, 1019 (8th Cir.

46a
2004). “In the absence of an allegation that the magistrate abandoned his detached and neutral role, suppression is appropriate only if the officers were dishonest or reckless in preparing their affidavit or could
not have harbored an objectively reasonable belief in
the existence of probable cause.” United States v.
Leon, 468 U.S. 897, 920 (1984). Even assuming that
the warrantless searches performed by Google or
NCMEC were found to be violative of the Fourth
Amendment, the undersigned finds no evidence of deliberate, reckless, or grossly negligent conduct by law
enforcement in relying on the warrants prepared
based upon that information. When Investigator Alberio applied for an acquired the search warrants, she
had no reason to believe that NCMEC had provided
her with information procured in violation of Defendant’s Fourth Amendment rights. The evidence reflects
that Investigator Alberico submitted her applications
for warrants based on her personal review of the 502
images she knew to have already been reviewed by
Google, which formed the basis of the probable cause
upon which the applications relied. Accordingly, the
undersigned concludes that law enforcement acted
reasonably and in good faith in relying on the warrants issued in this case.
Upon consideration,
IT IS HEREBY RECOMMENDED to Chief
United States District Court Judge Laurie Smith
Camp that:
1. Defendant’s Motion to Suppress Evidence and
Statements and Request for Evidentiary Hearing (Filing No. 47) be denied, and

47a
2. Defendant’s Motion to Suppress, Application
for Franks Hearing, and Request for Evidentiary Hearing and Oral Argument (Filing No.
49) be denied.
Dated this 19th day of October, 2018.
BY THE COURT:
s/ Michael D. Nelson
United States Magistrate Judge
ADMONITION
Pursuant to NECrimR 59.2, any objection to this
Findings and Recommendation shall be filed with the
Clerk of the Court within fourteen (14) days after being served with a copy of this Findings and Recommendation. Failure to timely object may constitute a
waiver of any such objection. The brief in support of
any objection shall be filed at the time of filing such
objection. Failure to file a brief in support of any objection may be deemed an abandonment of the objection.

